Your letter needs to include the following information:
• Your Name
• Credit card number
• Dollar amount of the suspected error
• Describe the error and explain if you can, why you believe
there is an error.
If it’s more information you need, describe the item you are
not sure about.
If you have authorized us to pay your credit card bill
automatically from your savings or checking account, you
can
stop the payment on any amount you think is wrong. To stop
the payment, your letter must reach us three business days
before the automatic payment is scheduled to occur.
YOUR RIGHTS AND OUR RESPONSIBILITIES
AFTER WE RECEIVE YOUR WRITTEN NOTICE:
We must acknowledge your letter within 30 days, unless we
have corrected the error by then. Within 90 days, we must
either correct the error or explain why we believe the bill is
correct. After we receive your letter, we cannot try to collect
any amount you questioned, or report you as delinquent.
We can continue to bill you for the amount you question,
including finance charges, and we can apply any unpaid
amount against your credit limit. You do not have to pay any
questioned amount while we are investigating, but you are
still obligated to pay the parts of your bill that are not in
question. If we find that we made a mistake on your bill,
you will not have to pay any finance charges related to any
questioned amount. If we didn’t make a mistake, you may
have to pay finance charges, and you will have to make up
any missed payments on the questioned amount. In either
case, we will send you a statement of the amount you owe
and the date it is due. If you fail to pay the amount that we
think you owe, we may report you as delinquent. However,
if our explanation does not satisfy you and you write to us
within ten days telling us that you still refuse to pay, we
must tell anyone we report you to that you have a question
about your bill. And we must tell you the name of anyone we
reported you to. We must tell anyone we report you to that
the matter has been settled between us when it finally is. If
we don’t follow these rules, we can’t collect the first $50 of
the questioned amount, even if your bill was correct.

(b) The purchase price must have been more than $50.
These limitations do not apply if we own or operate the
merchant, of if we mailed you the advertisement for the
property or services.
VISA Signature Cash/Points Rewards credit card earn 3
points for every $1 of all net purchases made.
VISA Platinum Rewards credit card earn 1 point for every
$1 of net purchases made.
Will my rewards expire?
Your rewards expire five years from the month in which they
were earned, as long as your account remains open.
Are there conditions for earning or redeeming rewards?
Rewards are earned on eligible net purchases. “Net
purchases” means the sum of your eligible purchase
transactions minus returns and refunds. Eligible purchase
transactions do not include, and rewards are not earned
for, the following transactions: cash advances, convenience
checks, balance transfers, or fees of any kind, including
finance charges, late fees, returned check fees, ATM cash
advance fees, and annual fees, if any. Cash equivalent
transactions, such as the purchase, loading or re-loading of
gift and prepaid cards (e.g., money orders, Prepaid Cards
and other cash equivalent gift cards), may not be eligible
purchase transactions and may not earn rewards.
What happens to my rewards if the account is closed?
Your rewards will be forfeited if your account is closed.
For additional information, please refer to the terms
and conditions with the card’s corresponding program
description.

M-130052

Interest Rates and Interest Charges

How do I earn rewards?

Visa Signature
Cash/Points Rewards
0% introductory rate for the
first 12 months. After that,
based on your creditworthiness

Annual
Percentage
Rate
(APR)
for
Purchases

Prime up to
18.00%

This APR will vary with the market
based on the US Prime Rate.
0% introductory rate for the
first 12 months. After that,
based on your creditworthiness
Prime up to 18.00%
This APR will vary with the market
based on the US Prime Rate.

APR
for
Balance
Transfer

VISA Platinum Rewards

VISA Classic

1.99% introductory rate for the first 12 months.
After that, based on your creditworthiness

LINE OF CREDIT

Prime up to 18.00%

This APR will vary with the market based on the US Prime Rate.

1.99% introductory rate for the first 12 months.
After that, based on your creditworthiness
Prime up to 18.00%
This APR will vary with the market based on the US Prime Rate.

APR for
Cash Advances

Prime up to 18:00%
This APR will vary with the market based on the US Prime Rate

Penalty APR and
When it Applies

No Penalty APR

How to Avoid
Paying Interest

Your due date is at least 25 days after the close of each billing cycle.
We will not charge you interest on purchases if you pay your entire balance by the due date each month.
We will begin charging interest on cash advances and balance transfers on the transaction date.

Minimum
Interest Charge
For Credit Card
Tips from the
Consumer
Financial
Protection
Bureau

CREDIT CARD
AGREEMENT AND
For a list of Keesler Federal locations,
please visit

If you have a problem with the quality or property of services
that you purchased with a credit card, and you have tried
in good faith to correct the problem with the merchant, you
have the right not to pay the remaining amount due on the
property or service. There are two limitations on this right:
(a) You must have made the purchase in your home state
or, if not within your home state within 100 miles of your
current mailing address; and

or call

1-888-533-7537 in the US
or 0-800-585-765 in the UK

None
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

1-888-KEESLER (533-7537)
www.kfcu.org

SET UP AND
MAINTENANCE
FEES

Annual Fee - None

TRANSACTION
FEES

Balance Transfer - $0
Cash Advance - $5
Foreign Transaction - 1%

PENALTY FEES

Late Payment - Up to $25.00 after payment is 10 days late
Returned Item - Up to $25.00 per returned item

IMPORTANT TO YOU. IMPORTANT TO US.
2/2019

How we will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”.
Billing Rights: Information on your rights to dispute transactions and how to
exercise those rights is provided elsewhere in this account agreement.
Refer to the “Important Credit Card Disclosures” sheet you received upon account approval.
9

DISCLOSURES

www.kfcu.org/branch-locations

Fees

SPECIAL RULES FOR CREDIT CARD PURCHASES

8

IMPORTANT CREDIT CARD DISCLOSURES

The information about the costs of the card described is accurate as of 1/24/19 and may have changed after that date.
To find out what may have changed, write us at P.O. Box 7001, Biloxi, MS 39534-7001..

10

11

KEESLER FEDERAL CREDIT UNION

TABLE OF CONTENTS
CREDIT CARD LINE OF AGREEMENT AND
DISCLOSURES

3-7

FINANCE CHARGE CALCULATION METHODS

7

VISA® LIABILITY FOR UNAUTHORIZED USE

7

VISA® LIABILITY FOR UNAUTHORIZED USE

7

YOUR BILLING RIGHTS

7

ERRORS OR QUESTIONS ABOUT YOUR BILL

7-8

SPECIAL RULES FOR CREDIT CARD PURCHASES

8-9

DISCLOSURE STATEMENT FOR PREAUTHORIZED
EFT FOR CREDIT CARD PAYMENTS

9

VISA PLATINUM REWARDS REBATE
PROGRAM RULES

9

INTEREST RATES AND FEES SCHEDULE

1011

BRANCH LOCATIONS AND HOURS

12

CREDIT CARD LINE OF CREDIT
AGREEMENT AND DISCLOSURES
IMPORTANT: PLEASE READ THE CREDIT CARD
AGREEMENT AND DISCLOSURES.
The purpose of this Agreement is to establish the terms and
conditions of your line of Credit.
In this Agreement the words “you” or “your” means each
person who applied for the Keesler Federal Credit Union
credit card or who uses the credit card or duplicate credit
card. Use of the word “card” in its singular form may also
refer to the plural. The word “card” also means your KFCU
credit card and duplicates of said card. The word “account”
means your KFCU credit card revolving credit account with
Keesler Federal Credit Union (the “Credit Union”).

d) A statement copy fee of $2.00 per page, will be assessed
against your account for requested statement copies
e) Card Replacement fee $5.00, this will automatically be
assessed to your credit card
6. We may, from time to time, issue convenience checks to
you that may be drawn on Your Account. Convenience checks
may not be used to make a payment on your account.
• Convenience checks when written are considered cash
advances and would be assessed the stated cash
advance fee per check.
• Interest on convenience checks will begin to accrue as
of the date of the advance.

1. You have applied for a line of credit that you can use from
time to time and which may be replenished by payment on
amounts previously drawn.

• The Credit Union reserves the right to return any check
not written for at least the minimum amounts shown on
the check.

2. This Agreement establishes your request for the issuance
of a credit card. The credit limit approved shall be determined
by the Credit Union, and this credit limit will be drawn upon
as you utilize an issued credit card.

• The following fees would apply for convenience checks:
-Return check - $20.00
-Check copy - $2.50
-Stop payment - $25.00 per request

3. A FINANCE CHARGE (interest) will be charged on any
outstanding balances that are not repaid within the
allowable 25-day grace period established by the Credit
Union. The Balance Calculation Method used by the Credit
Union is the “average daily balance” method including
current transactions”.

7. The minimum periodic payment required is the total New
Balance as shown on your monthly account statement
if the amount is under $10.00. If the New Balance exceeds
$10.00, the minimum periodic payment is 3% of that portion
of the New Balance which does not exceed your credit limit,
plus the entire portion of the New Balance in excess of your
credit limit, plus any amount past due, or $10.00, whichever
is greater.

4. Variable Rate Information: Your APR may increase or
decrease. The Interest Rate may change quarterly on the
first day of January, April, July and October, based on the
U.S. Prime Rate as published in the Wall Street Journal.
The Margin is determined based on an evaluation of each
Member’s credit history. The Margin will range from 0% to
12% based on product type and credit history.
5. Other charges may also be assessed against your account
as follows:
a) A late charge of up to $25.00 will be assessed against
your account when the minimum monthly payment as
indicated on your account statement is not paid within 10
days after the due date.
b) A cash advance fee of $5.00 will be charged to your
account for each cash advance obtained utilizing your
account.

2

c) A return item fee of up to $25.00 will be assessed
against your account for any item returned for nonsufficient funds or closed account. This includes but is not
limited to, check payments mailed to our Service Center or
Credit Union and check payments made at a local branch.

3

8. You promise to pay any and all charges by you or any
person whom you authorized to use the credit card issued
to you.
9. You also agree to pay all costs incurred by the Credit
Union in collecting your indebtedness or in enforcing this
Agreement, including attorney’s fees or 10% of the unpaid
balance or such greater amount as may be reasonable and
just, and also those costs, expenses and attorney’s fees
incurred in appellate proceedings.
10. You understand and agree that the Credit Union has the
authority to impress and enforce a statutory lien on all
present and future shares in your name to the extent of
that portion of the loan balance which may be in default,
including cost of collection and reasonable attorney’s fees.
Further you hereby expressly agree and consent that the
Credit Union may apply such shares in payment of that
portion of the loan balance which may be in default under
4

this Agreement which may include a FINANCE CHARGE,
including other charges, and that such application may
be pursuant to such a pledge or as a right of offset, and
can be exercised without further notice to you. If you have
any loans with the Credit Union, or take out other loans in
the future, collateral securing those loans will also secure
your obligation under this Agreement. However, unless
you expressly agree otherwise, your primary dwelling will
not secure your obligation under this Agreement even if
the Credit Union has or later acquires a mortgage on the
dwelling.
11. As a holder of a credit card, you understand that you
can repay any outstanding balance prior to maturity in
whole or part at your option without penalty. If Promotional
Balance(s) exists, we may allocate all of the minimum
monthly payments to the promotional balance(s) before the
non-promotional balance(s).
12. Foreign transactions conducted in a foreign currency will
be converted to a U.S. dollar amount. Currently, the
conversion rate used to determine the transaction amount
in U.S. dollars for such a transaction generally will be either
the government mandated rate or a wholesale rate for the
processing cycle in which the transaction is processed,
increased by an adjustment factor established from time to
time. The currency conversion rate used on the processing
date may differ from the rate that would have been used
on the purchase date or cardholder statement posting date.
13. The Credit Union is not responsible for the refusal or
failure of any merchant, bank or automated equipment to
honor or accept your credit card. Except as indicated in the
Billing Rights Summary on Page 7, the Credit Union is not
responsible for any goods or services you purchase with
your credit card and you must resolve all disputes directly
with the merchant.
14. You authorize the Credit Union to pay for your account,
all items reflecting purchases or cash advances made with
your credit card in spite of the absence of your signature on
a draft or the lack of your presentation of the credit card.
By giving your credit card to someone else, you authorize all
purchases and cash advances made by the person until you
have notified us that further transactions are unauthorized.
15. Prior to your use of the credit card that may be issued,
you agree to comply with all of the terms and conditions
established by the Credit Union’s Board of Directors
pertaining to the use of such credit card. In the event you do
not wish to comply with the foregoing terms and conditions
for any reason, you may terminate this Agreement and
return the credit card to the Credit Union.
16. You acknowledge and agree that the Credit Union may
terminate this Agreement under the following conditions:
5

(a) upon adverse reevaluation of your creditworthiness,
(b) upon your failure to satisfy the terms of this agreement,
or
(c) at your option or at the Credit Union’s option if it has a
good cause.
17. If your line of credit is terminated by the Credit Union, you
shall receive written notice of such termination; however, you
understand and acknowledge that such termination shall
not affect your obligation to pay any outstanding balance.
18. You understand that the Credit Union‘s Board of Directors
may require that your loan file be reviewed periodically, and
you hereby give your permission and authorize the Credit
Union to investigate and reassess your creditworthiness.
19. You understand that the Credit Union may require
reverification and approval if: (a) the credit limit is increased
or (b) the terms of payment are extended beyond the terms
of the original Agreement.
20. You fully understand, acknowledge and agree that
if any loans become delinquent or past due, your credit
card shall be revoked unless the Credit Union determines
that extenuating circumstances have contributed to the
delinquency. Under such circumstances, the Credit Union
may approve your continued use of the credit card.
21. You understand that you MUST maintain your
membership with Keesler Federal Credit Union to continue
your use of the credit card.
22. You agree and understand that your credit card is
intended only for legitimate consumer use and may not be
used for any illegal transaction.
23. Amendments to this Agreement and Changes to
Benefits:
a. KFCU may amend and change this Agreement, including
rates, by providing an advance written notice of the
changes to you when required by law. However, we may
reduce charges, fees and rates without sending you an
advance notice.

to the credit transaction or account: The costs associated
with credit insurance premiums, fees for ancillary products
sold in connection with the credit transactions; and any
application fee charged (other than certain application
fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation
fees for a credit card account).
FINANCE CHARGE CALCULATION METHODS
The FINANCE CHARGE Calculation Method applicable to
your account for Cash Advances and Credit Purchases of
Goods and Services that you obtain through the use of your
credit card is specified below:
METHOD F- To avoid incurring additional FINANCE CHARGE
on the balance of Cash Advances (and Credit Purchases, if
this Method F is specified as applicable to Credit Purchases)
reflected on your statement on or before the Payment Due
Date the FINANCE CHARGES for a billing cycle are computed
by applying the monthly Periodic Rate to the Average
Daily Balance of Cash Advances (and, if applicable Credit
Purchases), which is determined by dividing the sum of the
Daily Balances during the billing cycle by the number of
days in the cycle, plus applicable Cash Advance Fees. Each
daily balance of Cash Advances (and if applicable, Credit
Purchases) is determined by adding to the Previous Balance
of Cash Advances (and, if applicable, Credit Purchases), any
new Cash Advances as of the transaction date or the first
day of the billing cycle in which posted, whichever is later,
(and, if applicable, any Credit Purchases as posted) and
subtracting any payments as received and credits as posted
to your account, but excluding any unpaid FINANCE CHARGE.
VISA® LIABILITY OR UNAUTHORIZED USE
You will not be liable for the unauthorized use of your credit
card. You must notify: PSCU Financial Services at P.O. Box
31216, Tampa, FL 33631, in writing or call 1-800-449-7728
to report any loss, theft or possible unauthorized use.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE

b. Credit card benefits offered as part of your credit card
account, such as rewards, may be modified or discontinued
at any time for any reason. Separate terms and conditions
apply to these and other benefits associated with your
credit card.

This notice contains important information about your rights
and our responsibility under the Fair Credit Billing Act.

24. Under the Military Lending Act, the following statement
applies to covered borrowers:
Federal law provides important protections to members
of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable

If you think your bill is wrong, or if you need more information
about a transaction on your bill, write us on a separate sheet
at the address listed on your bill. Write to us as soon as
possible. We must hear from you no later than 60-days after
we sent the first bill on which the error or problem appeared.
You can telephone us, but by doing so will not preserve your
rights.

6

7

NOTIFY US IN CASE OF ERRORS OR QUESTIONS ABOUT
YOUR BILL.

